        AUDIT OF THE
U.S. DEPARTMENT OF JUSTICE
   TERRORIST WATCHLIST
  NOMINATION PROCESSES
       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 08-16
             March 2008
             Audit of the Department of Justice’s
           Terrorist Watchlist Nomination Processes

       The U.S. government maintains a consolidated terrorist watchlist as a
key component of its counterterrorism efforts. This list, maintained by the
Federal Bureau of Investigation’s (FBI) Terrorist Screening Center (TSC),
was created by merging previously separate watchlists maintained by
different agencies throughout the federal government. The consolidated
terrorist watchlist is updated daily with new or revised information on known
or suspected terrorists. This information is obtained by a variety of
government agencies, including law enforcement agencies in the
Department of Justice (DOJ).

      As part of a coordinated review by other Offices of Inspector General
(OIG) in the Intelligence Community, this DOJ OIG audit examined the DOJ’s
nomination of known or suspected terrorists to the consolidated terrorist
watchlist. The objectives of this audit were to determine whether:
(1) DOJ’s processes and standards for nominating individuals to the
consolidated watchlist are consistent, are articulated in policy or other
guidance, and are understood by nominators; (2) DOJ components have
quality control processes to help ensure nominations are accurate,
understandable, updated with new information, and include all individuals
who should be placed on the watchlist based on information available to the
agencies; (3) the responsibility for watchlist nominations is clear, effective,
and understood; (4) nominators receive adequate training, guidance, or
information on the nominations process; (5) DOJ components maintain
records of their nominations, including the source of the nomination and
what information was provided; and (6) DOJ organizations with terrorism,
counterterrorism, and domestic counterterrorism information in their
possession, custody, or control appropriately participate in the nominations
process.

       Our audit was conducted in conjunction with other OIGs who examined
similar issues at other agencies in the Intelligence Community. This
interagency effort, led by the OIG for the Office of the Director for National
Intelligence (ODNI), sought to examine watchlist nomination activities
throughout the Intelligence Community. Among the other OIGs who
participated in this coordinated effort were the OIGs from the Departments
of State, Treasury, Energy, and Homeland Security; and the Central
Intelligence, Defense Intelligence, National Geospatial-Intelligence, and
National Security Agencies. We reviewed the nomination process within
DOJ, while these other OIGs reviewed the processes within their respective
agencies. The ODNI OIG coordinated this review and compiled the results of
the separate reviews.
       To accomplish the objectives of our review within DOJ, we interviewed
over 100 DOJ employees and officials at both the headquarters and field
office levels of various DOJ components.1 These components included the
FBI; Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF); Drug
Enforcement Administration (DEA); Federal Bureau of Prisons (BOP);
U.S. Marshals Service (USMS); DOJ National Security Division (NSD); and
United States National Central Bureau (USNCB) – the U.S. liaison with the
International Criminal Police Organization (INTERPOL). We also interviewed
personnel at the TSC and the National Counterterrorism Center (NCTC),
which is a component of the ODNI. In addition to these interviews, we
reviewed the policies and processes concerning terrorist watchlisting at the
various components and we performed testing of FBI watchlist nomination
packages.

      We performed our audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States, and
accordingly, included such tests of the records and procedures that we
considered necessary. Our audit covered policies, procedures, and practices
in place at the time of our field work, June 27, 2007, through October 23,
2007.

OIG Results in Brief

      Overall, our review determined that the FBI is the only DOJ component
that formally nominates known or suspected terrorists for inclusion on the
consolidated terrorist watchlist. The FBI processed 3,417 standard watchlist
nominations in calendar year 2005, 2,568 nominations in 2006, and 2,255 in
2007, as of November 29, 2007. Our review found that FBI personnel
understood the FBI’s responsibilities regarding the watchlisting process, and
the FBI had developed and articulated in policy formal processes for
nominating known or suspected terrorists to the watchlist, had instituted
sound record management procedures for its standard watchlist
nominations, and had provided basic training on the watchlist nomination
process to its staff.

       We also determined that the FBI established criteria and quality
controls to assist in developing proper and accurate watchlist nominations.
However, we found that the FBI was not always providing updated
nominations when new information became known about a nominated
individual. We also found that the FBI was not always removing records
from the watchlist when it was appropriate to do so. Moreover, FBI

       1
        We visited field offices in Charlotte and Raleigh, North Carolina; Chicago, Illinois;
and San Francisco and Dublin, California.


                                            -2-
headquarters officials reported that watchlist nomination submissions from
field offices were often incomplete or contained inaccuracies, which caused
delays in the processing of nominations. We concluded that the FBI should
require its Supervisory Special Agents (SSA) to review all nominations
submitted by their case agents for accuracy and completeness. These
individuals should also be responsible for helping to ensure that case agents
create nominations for all individuals who meet the FBI’s threshold for
nomination. Such action would improve the accuracy and timeliness of
watchlist nomination submissions and help prevent the omission of an
appropriate nomination.

      Additionally, we were informed that FBI field offices had, at times,
bypassed FBI headquarters and submitted nominations directly to NCTC.
This could result in the watchlisting of individuals without an FBI quality
review and could also affect the completeness of the FBI’s records that are
maintained to support its watchlist nominations.

       In addition to its watchlist nomination activities, the FBI prepares
terrorist-related intelligence reports that it disseminates throughout the
Intelligence Community. Although the FBI did not intend for these reports
to be official nominations, NCTC officials informed us that they considered
this information from the FBI to constitute official watchlist nominations. As
a result, NCTC created watchlist records from these reports and sourced
them to the FBI. However, because the FBI was not aware of this NCTC
practice, the FBI was not monitoring the records to ensure that they were
updated or removed when necessary.

       Although the FBI is the only DOJ component that officially nominates
individuals for inclusion on the consolidated terrorist watchlist, other DOJ
components – such as the ATF, BOP, DEA, USMS, and USNCB – have the
potential to obtain terrorist-related information through their day-to-day
operations. These DOJ components are required to share terrorism
information with the FBI. Our review found that these DOJ components
have established processes to share such information with the FBI.
However, with the exception of the USNCB and certain sharing processes at
the DEA, these DOJ components were generally sharing information in an
informal manner, and not all had documented their policies requiring
information sharing. In addition, at least one component (ATF) did not
categorize criminal activity as being terrorism-related in a manner similar to
the FBI, most notably in cases of domestic terrorism. As a result, the
potential exists for terrorism information to not be shared with the FBI and
for terrorists to not be watchlisted.




                                     -3-
       In addition to sharing terrorist information with the FBI, the DEA and
USNCB were participating in some information sharing initiatives within the
Intelligence Community, including with NCTC, that were being interpreted by
NCTC as watchlist nomination requests. As a result, NCTC’s database
included watchlist records that were sourced to the DEA and USNCB.
However, neither the DEA nor the USNCB were aware that this was occurring
or that watchlist records had been sourced to them. Therefore, the DEA and
USNCB were not performing any activities to ensure that the watchlist
records were updated or removed when necessary. As a result, these
records have the potential to become outdated. Both the DEA and USNCB
officials told us when we brought this issue to their attention that they would
coordinate with NCTC to ensure proper handling of these records.

       Finally, we found that although DOJ components are heavily involved
in watchlisting and actively share terrorist information, these activities have
been developed independently and are not coordinated by DOJ. We believe
that DOJ should consider promulgating policy related to nominations to the
consolidated terrorist watchlist and the sharing of information that might
result in such a nomination. Although each DOJ component could continue
its current initiatives to share information related to known or suspected
terrorists and the FBI could continue to make its nominations, such a policy
would provide a standardized framework within which all DOJ components
would operate. Further, if all Department components operated within a
standardized framework, others in the Intelligence Community, such as
NCTC, would have a better ability to understand the intent of, and act
appropriately upon, the information received from DOJ components.

       As a result of our review, we have made seven recommendations to
DOJ and to individual components to help improve the watchlist nomination
policies, processes, and practices. These recommendations include
establishing DOJ-wide watchlisting guidance, enhancing FBI watchlisting
policies, and ensuring the correct sourcing of watchlist records that result
from information shared by DOJ components.

       Our findings are discussed in more detail in the following sections.
First, we provide a brief background of DOJ nomination activities, then
discuss the FBI’s nomination of known or suspected terrorists to the
consolidated terrorist watchlist. Our discussion on DOJ terrorist information-
sharing practices follows.

Overview of DOJ Watchlist Nomination Activities

      Homeland Security Presidential Directive-6 (HSPD-6) mandated the
U.S. government to develop the consolidated terrorist watchlist. This


                                     -4-
directive requires law enforcement and intelligence agencies with terrorist
information in their possession, custody, or control to appropriately share
such information for purposes related to the consolidated watchlist of known
or suspected terrorists. A subsequent Memorandum of Understanding
signed by the Attorney General, the Director of Central Intelligence, and the
Secretaries of Homeland Security and State requires information on
international terrorists to be shared with NCTC and purely domestic
terrorism information to be shared with the FBI.2 The procedure for
submitting information on individuals for inclusion on the watchlist is
referred to as the “nomination process.”

       According to the Code of Federal Regulations, the FBI shall “exercise
lead agency responsibility in investigating all crimes for which it has primary
or concurrent jurisdiction and which involve terrorist activities or acts in
preparation of terrorist activities within the statutory jurisdiction of the
United States.” The Code of Federal Regulations also states, “if another
[non-FBI] federal agency identifies an individual who is engaged in terrorist
activities or in acts in preparation of terrorist activities, that agency is
requested to promptly notify the FBI.”3 Therefore, DOJ components such as
the ATF, BOP, DEA, USMS, and USNCB that have the potential to acquire
terrorist information through their operations are required to share with the
FBI information related to domestic or international terrorists with a nexus to
the United States.4

       2
          International Terrorism is defined by the U.S. Criminal Code as activities that
(A) involve violent acts or acts dangerous to human life that are a violation of the criminal
laws of the United States or of any State, or that would be a criminal violation if committed
within the jurisdiction of the United States or of any State; (B) appear to be intended (i) to
intimidate or coerce a civilian population, (ii) to influence the policy of a government by
intimidation or coercion, or (iii) to affect the conduct of a government by mass destruction,
assassination, or kidnapping; and (C) occur primarily outside the territorial jurisdiction of
the United States, or transcend national boundaries in terms of the means by which they
are accomplished, the persons they appear intended to intimidate or coerce, or the locale in
which their perpetrators operate or seek asylum. The U.S. Criminal Code defines domestic
terrorism as activities that (A) involve acts dangerous to human life that are a violation of
the criminal laws of the United States or of any State; (B) appear to be intended (i) to
intimidate or coerce a civilian population, (ii) to influence the policy of a government by
intimidation or coercion, or (iii) to affect the conduct of a government by mass destruction,
assassination, or kidnapping; and (C) occur primarily within the territorial jurisdiction of the
United States. 18 U.S.C. 2331 (2007).
       3
           28 C.F.R. § 0.85 (2007).
       4
          The U.S. Criminal Code does not differentiate between international and domestic
terrorism based solely on the geographic location of an individual. The distinction is made
based on the types and origins of the terrorist activities involved. An example of a purely
domestic terrorist event is Timothy McVeigh’s bombing of the Oklahoma City Federal
Building. The events of September 11, 2001, represent an international terrorist event.


                                             -5-
FBI Watchlist Nominations Processes

       The FBI is the only DOJ component that officially nominates known or
suspected terrorists to the consolidated terrorist watchlist. The FBI has
formal processes and policies that document the FBI criteria for watchlist
nominations, the methods for effecting nominations, requirements for
updating watchlist records when new information is obtained, and removing
watchlist records when it is determined that an individual should not be
watchlisted. The FBI’s watchlisting policies were developed internally and
pertain only to the FBI, not to other DOJ components or any external
agencies that are involved in watchlisting matters. The FBI uses several
different methods to accomplish its nominations depending on the source
and type of terrorist information involved.

Nominations of Investigative Subjects

      In general, individuals who are subjects of ongoing FBI
counterterrorism investigations are nominated to TSC for inclusion on the
watchlist, including persons who are being preliminarily investigated to
determine if they have links to terrorism. FBI policy requires the responsible
case agent to forward a complete nomination package to the Terrorist
Review and Examination Unit (TREX) in FBI headquarters. This package
should include an initial case opening electronic communication, a copy of a
notice of initiation that is directed to DOJ headquarters, and an FBI watchlist
nomination form.5

      For international terrorist nominations, TREX is responsible for
reviewing and approving the nomination. It then forwards the nomination to
NCTC. NCTC performs its review of the nomination and submits it to the
TSC for inclusion in the consolidated terrorist watchlist. In cases of domestic
terrorist nominations, TREX will send the nomination directly to the TSC.

     The following graphic provides a basic illustration of the FBI’s watchlist
nomination process for international and domestic terrorist nominations.




      5
        The FBI nomination form is called an FD-930. We refer to this document
throughout the report as the nomination form.


                                         -6-
                       Watchlist Nomination Process

                          FBI Investigative Subjects



                                                 Field Level




                                                   FBI
                                               Headquarters
                                                  (TREX)

                                Domestic                International
                                Terrorist               Terrorist
                                Nominations             Nominations


                                                 National
                                              Counterterrorism
                                                  Center




                                                  Terrorist
                                                 Screening
                                                   Center




                       Source: OIG analysis of FBI watchlist process




      Quality Control Weaknesses

      While the FBI has developed a process and criteria for nominating
subjects of terrorism investigations to the consolidated terrorist watchlist,
we concluded that the FBI could improve controls for ensuring the quality
and timeliness of its watchlist nominations. We found that FBI policy did not
require its field offices to perform reviews of the watchlist nomination form
generated by case agents. As a result, a majority of the SSAs we
interviewed were not reviewing the nomination forms created by their case
agents. In addition, TREX officials reported that nomination packages from
case agents were often incomplete and analysts were often required to
follow-up with the agents to receive sufficient information, thus delaying the
processing of nominations. In some instances we found that TREX had not
received a nomination package for up to 4 months after the case was
opened even though FBI policy requires the case agent to notify TREX within
10 days of the initiation of the investigation.




                                          -7-
       The Assistant Director of the FBI Counterterrorism Division, TREX
management, and Assistant Special Agents in-Charge (ASAC) told us that
field office SSAs should be reviewing the nomination forms for content and
accuracy. They noted that a quality control review at that level helps ensure
that watchlist nomination information is accurate and sufficient before
leaving the field office, providing more accurate watchlist information to use
in screening for terrorists. Additionally, FBI officials believed this control
would help reduce processing delays caused by incorrect watchlist
information identified by FBI personnel further along in the nomination
process.

       Moreover, until recently the FBI did not have procedures to ensure all
subjects of terrorism investigations were nominated to the watchlist as
required by FBI policy. FBI headquarters recently instituted procedures to
review information in the FBI’s Automated Case Support (ACS) system to
identify any open terrorist cases for which it did not receive a nomination
package. In addition to this practice, we believe nomination omissions could
be significantly reduced if FBI field offices were required to perform regular
reviews to ensure that all terrorism subjects in cases under their control
have been nominated in a timely fashion and in accordance with FBI policy.

      Failure to Modify and Remove Watchlist Records

       According to HSPD-6, each nominating agency involved in the
watchlist process is responsible for, on an ongoing basis, providing terrorist
information in its possession, custody, or control, thus ensuring watchlist
information is current, accurate, and complete. Additionally, nominating
agencies should generally provide information to remove an individual from
the watchlist when it is determined that no nexus to terrorism exists.
During the course of an investigation, the FBI may acquire additional
identifying information on watchlisted subjects. FBI policy includes
requirements for updating and removing watchlist records of investigative
subjects and states that it is “essential” that this additional information be
used to enrich an existing record. To accomplish watchlist record revisions,
the FBI uses the same process for initially nominating an investigative
subject to the terrorist watchlist.

      However, several FBI personnel informed us that the modification of
watchlist records is not being performed on a regular basis. NCTC personnel
also stated that they see very few modification requests from the FBI.
Moreover, many of the FBI employees with whom we spoke were not aware
of the standards for determining when a modification of the watchlist record
is necessary. As a result, certain watchlist records are likely missing useful
information.


                                     -8-
       Additionally, TREX and TSC personnel stated that FBI field offices are
not always requesting the removal of watchlisted individuals when closing an
investigation. While there are circumstances allowing the FBI to maintain a
watchlist record on individuals for whom it has closed an investigation, TREX
and TSC officials believed that often individuals inappropriately remained
watchlisted because the case agents did not file the paperwork necessary to
effect their removal.

       Processing Redundancy

      The FBI’s process for nominating known or suspected terrorists of FBI
investigations involves manually entering watchlist information at multiple
points in the process. For international terrorist nominations, an FBI case
agent first manually enters the information into an electronic FBI watchlist
nomination form. Second, FBI personnel at TREX enter the same basic
watchlist information into the Violent Gang and Terrorist Organization File
(VGTOF) of the National Crime Information Center system.6 Third, FBI
personnel at NCTC enter watchlist information into the Terrorist Identities
Datamart Environment (TIDE), which is then exported electronically to the
terrorist screening database maintained by the TSC. Essentially, the FBI is
entering the same basic watchlist data three times during this nominations
process. Similarly, domestic terrorist nominations are manually entered
twice. A case agent first enters the watchlist information on the watchlist
nomination form, and then FBI personnel at the TSC enter the same basic
information into the consolidated terrorist watchlist database.

      FBI officials recognized that these multiple entries may lead to
watchlisting errors and informed us that efforts are currently underway to
address this issue. We agree that the risk of data-entry error increases with
each entry and we recommend that the FBI determine whether its watchlist
processes – both its international terrorist and domestic terrorist
nominations – could be streamlined to reduce the number of times watchlist
information must be manually entered.




       6
          VGTOF contains a relevant subset of the consolidated terrorist watchlist for law
enforcement to use in daily screenings of persons of interest. In our September 2007
report on the Terrorist Screening Center we noted that entering international terrorist
information into VGTOF before submitting the nomination to NCTC caused inaccuracies and
inconsistencies in watchlist records. Department of Justice, Office of the Inspector General,
Follow-up Audit of the Terrorist Screening Center, Audit Report 07-41, September 2007.


                                            -9-
Nomination of Non-Investigative Subjects

      In addition to nominating subjects of its terrorist investigations, the
FBI has a formal process for nominating to the watchlist known or suspected
international terrorists who are not subjects of FBI investigations. FBI policy
states that an FBI entity wanting to nominate an individual must provide the
FBI Counterterrorism Division a memorandum containing information to
support nominating the individual for inclusion on the consolidated terrorist
watchlist even though it is not formally investigating the individual. The
Counterterrorism Division is then responsible for submitting a request to
NCTC to nominate the individual for watchlisting.

       However, the FBI policy governing the nomination of known or
suspected international terrorists not under FBI investigation does not
describe procedures or mechanisms for modifying or removing watchlist
records created by this process. Additionally, the FBI policy does not define
quality control procedures to help ensure the accuracy and completeness of
the information submitted to NCTC for watchlist nominations. While the FBI
policy describes the process for nominating non-investigative subjects to the
consolidated terrorist watchlist, it does not identify entities or procedures to
be used in conducting a review of the information. In contrast, the FBI’s
policies for nominating its investigative subjects include quality control
procedures and mechanisms to help ensure watchlist records are modified
and removed as appropriate. We believe the FBI needs to develop quality
control procedures and describe mechanisms or procedures to modify or
remove watchlist records for non-investigative subject nominations.

      In addition, although the FBI has a formal process for nominating non-
investigative subjects to the watchlist, when we discussed this process with
a Counterterrorism Division section manager responsible for receiving such
information and forwarding nomination requests to NCTC, we were informed
that the section had not received any such nomination requests. When we
discussed this issue with an NCTC official, we learned that NCTC is receiving
nominations for non-investigative subjects directly from FBI field personnel.
Because this nomination practice is not covered in FBI policy, there are no
requirements for FBI personnel to ensure that any resulting watchlist records
are updated or removed as appropriate. There is likewise no mechanism to
ensure that the nominations directly passed to NCTC by field personnel are
appropriate and that the information is complete and accurate.

     The weaknesses described above indicate that the potential exists for
the watchlist nominations to be inappropriate, inaccurate, or outdated
because watchlist records are not appropriately generated, updated or
removed as required by FBI policy. Accurate and current identifying


                                     - 10 -
information is critical for identifying suspected terrorists during screening
practices, lowering the risk to frontline screening personnel, and reducing
misidentifications of innocent individuals who are not suspected terrorists.
Moreover, watchlist records on individuals determined to have no nexus to
terrorism should be removed from the database to improve the accuracy of
the list and to reduce the risk that innocent individuals will be stopped or
detained as a result of outdated watchlist records.

FBI Terrorist Watchlist Training

       The FBI provides formal training on the watchlist nominations process
to various FBI personnel, and it includes instructions on the FBI watchlist
protocols on the TREX website on the FBI Intranet. New FBI agents receive
comprehensive instruction on the FBI’s watchlist process and nomination
requirements during the standard New Agent Training course. The FBI also
informed us that it was providing further instruction on the consolidated
terrorist watchlist during its newly implemented agent refresher course,
which is provided to agents who have been employed with the FBI between
6 months and 3 years. Additionally, newly appointed Special Agents in
Charge receive a tutorial on the watchlist process before reporting to their
new assignment. FBI Legal Attachés receive instruction on the watchlist
process during FBI Legal Attaché conferences. Further, field office personnel
told us during interviews that the TREX Intranet site is a good reference
source for agents to use when completing and submitting a watchlist
nomination to TREX. Other FBI personnel noted that agents and task force
officers regularly receive on-the-job training from experienced FBI agents,
which can include instruction on the FBI’s watchlist nomination procedures.

       Through its counterterrorism training program, the FBI has also
provided instruction on the watchlist nomination process to experienced FBI
agents and non-FBI Joint Terrorism Task Force (JTTF) members.7 However,
several veteran FBI field agents informed us that they still had not received
formal training on the watchlist process. Similarly, non-FBI JTTF personnel
we interviewed told us that they had not received any formal training on the
nomination process even though they may be given lead agent responsibility
for or be assigned to a JTTF terrorism case. Also, as previously noted,
despite the training some field personnel did not follow FBI watchlist
nomination procedures. For example, some FBI personnel failed to modify
or remove watchlist records when appropriate, while others bypassed FBI

       7
         The Joint Terrorism Task Forces (JTTF) are FBI-led multi-agency task forces. The
JTTFs are located in more that 100 cities in the United States and are made up of FBI Special
Agents, state and local law enforcement, and representatives from other government
agencies. The JTTFs’ responsibilities are to prevent, detect, deter, and investigate attacks
perpetrated by domestic and international terrorists in that JTTF’s region.


                                          - 11 -
headquarters and submitted nominations directly to NCTC. Therefore, we
believe more formalized instruction on the watchlist nomination process is
warranted.

      Several FBI personnel we interviewed believed that more regular
refresher training on the nomination process would be beneficial. FBI
management at TREX stated that such training would help reduce the
number of errors that TREX personnel find on watchlist nomination forms.
Formalized training on the nomination process could also help heighten the
awareness that watchlist records must be modified and removed when
necessary.

FBI Watchlist Record Retention

       To determine if the FBI retained records of its watchlist nominations,
including the source of the nomination and the information contained in the
nomination, we reviewed FBI policy and documentation maintained by the
FBI. We found that the FBI has sound procedures for maintaining records
on terrorist watchlist nominations for its investigative subjects. According to
FBI officials, TREX retains records of all of its terrorist watchlist nominations
in hardcopy and electronic formats. These files should include the watchlist
nomination form, approved internal communication from the field office
justifying and authorizing the case opening, and the notice of initiation
memorandum.

        We reviewed a sample of watchlist nomination hardcopy and electronic
files, including those in the FBI’s Automated Case Support system and
confirmed that these documents were included. Additionally, we observed
that FBI field office hardcopy case files included some or all of these
documents. Therefore, we concluded that the FBI was adequately retaining
records of its watchlist nominations for its investigative subjects, including
the source of the nomination and the information contained in the
nomination.

       However, we were told by a TREX supervisor that sometimes TREX
processes nominations without all of the required documents. Therefore,
watchlist records maintained at TREX for these nominations may not contain
all the documents outlined in FBI policy.

     In addition, as described above, the FBI’s policies and practices for
nominating non-investigative subjects to the watchlist are less structured
and centralized than those for investigative subjects. Therefore, we are
concerned that the FBI’s maintenance of documents supporting watchlist



                                     - 12 -
records for non-investigative subjects is decentralized and not being
maintained.

DOJ Terrorist Information Sharing

      In October 2005, the President issued Executive Order 13388, which
requires agencies possessing or acquiring terrorism information to promptly
provide access to that information to agencies with counterterrorism
functions.8 Additionally, in 2003 a Memorandum of Understanding signed by
the Attorney General, the Director of Central Intelligence, and the
Secretaries of Homeland Security and State required that information on
international terrorists be shared with NCTC and purely domestic terrorism
information be shared with the FBI. As a result, DOJ components such as
the ATF, BOP, DEA, FBI, USMS, and USNCB that have the potential to
acquire terrorist information through their operations are required to share
such information with other agencies for purposes related to the
consolidated terrorist watchlist.

       To examine DOJ’s involvement in terrorist watchlisting, we interviewed
officials at the FBI, DEA, ATF, NSD, USMS, USNCB, and BOP. NCTC and FBI
officials informed us that in addition to the FBI’s watchlist nomination
practices, the FBI also has processes to share terrorist information with
appropriate agencies. Officials at each of the other DOJ components
reported that they have not been formally involved in any watchlist
nominations. However, as described below, each of these components
reported that they share terrorist information with other agencies with a
counterterrorism mission.9 Through the sharing of terrorism information
with the FBI, DOJ components also allow the FBI the opportunity to assess
potential terrorist threats and to nominate known or suspected terrorists to
the U.S. government’s consolidated terrorist watchlist.

FBI Terrorist Information Sharing

       FBI domestic field offices have intelligence groups that generate
Intelligence Information Reports to share terrorism information within the
FBI and with agencies in the Intelligence Community, including NCTC.
However, NCTC officials told us that NCTC treated these documents as
official watchlist nomination requests. Moreover, the resulting records
created by NCTC identify the FBI as the source of the nomination. When we

      8
         Executive Order 13388 on Further Strengthening the Sharing of Terrorism
Information to Protect Americans. (E.O. 13388).
      9
        Officials from the NSD informed us that the NSD is not involved in the watchlist
nomination process.


                                          - 13 -
raised this issue with FBI officials, they stated that they were not aware of
this NCTC practice. Because the FBI was not aware that such watchlist
records were created, it was not modifying or removing these watchlist
records as necessary. Additionally, because the FBI did not consider these
reports to be watchlist nominations, they were not reviewing them to ensure
that all nomination-related information was complete and accurate.
Therefore, we believe that there is a significant potential for records created
in this manner to be inaccurate or become outdated.

      The FBI has developed procedures to assist the Department of Defense
(DOD) in the sharing of information related to military detainees in
Afghanistan and Iraq. According to FBI officials, the DOD did not have the
capability of incorporating fingerprints for these detainees into a system used
in the watchlisting process. Therefore, the FBI’s Criminal Justice Information
Services Division (CJIS) Intelligence Group processes DOD-obtained
fingerprints and then passes the related information on the individual to
NCTC.10 According to CJIS officials, the FBI considers itself a conduit in
processing a DOD watchlist nomination and does not consider itself to be the
nominating agency for these subjects. However, NCTC officials informed us
that when it receives such records, they are sourced to the FBI. If these
records have enough information to qualify for watchlisting, NCTC processes
the FBI-sourced record as a nomination. Therefore, these records also have
the potential to become stale because the FBI – identified as the source
agency – is not in a position to, and does not monitor the records to ensure
that they are accurate and current. We believe that the FBI, NCTC, and DOD
should coordinate their actions to ensure that watchlist records created
through this process are sourced to the correct agency.

Other DOJ Information Sharing

      As previously noted, the FBI is the lead agency responsible for
investigating terrorist activities within the statutory jurisdiction of the United
States. Other federal agencies that identify terrorists or terrorist activities
are required to promptly notify the FBI. Through the sharing of terrorism
information, DOJ components allow the FBI to assess potential terrorist
threats and nominate known or suspected terrorists to the
U.S. government’s consolidated terrorist watchlist.




       10
          CJIS serves as the FBI’s focal point and central repository for criminal justice
information, such as fingerprints and criminal history information, in the FBI.



                                            - 14 -
      Drug Enforcement Administration

      The DEA is responsible for “the development and implementation of a
concentrated program throughout the federal government for the
enforcement of Federal drug laws and for cooperation with State and local
governments in the enforcement of their drug abuse laws.”11 The DEA notes
that, while not having a formal counterterrorism mission, there is often a
nexus between drugs and terrorism. For example, in November 2005 the
DEA reported in an internal communication that almost half of the 41 foreign
terrorist organizations identified by the State Department had ties to some
aspect of drug trafficking.

       Although the DEA acknowledges a nexus between drugs and terrorism,
DEA officials informed us that the agency does not officially nominate
individuals for inclusion on the consolidated terrorist watchlist. According to
DEA officials, they had not received any guidance directing the DEA to
formally nominate to the watchlist all individuals who the DEA had identified
as being associated with drug trafficking activities carried out by foreign
terrorist organizations on the State Department’s list of foreign terrorist
organizations.

      The DEA has developed policies and processes for sharing terrorism
information with other agencies. DEA policy requires all terrorism
information to be shared with the DEA’s Special Operations Division (SOD),
the local JTTF, and the local FBI field office. DEA’s foreign offices are also
instructed to immediately pass terrorism information in country to the FBI
and other U.S. agencies when appropriate. In addition, the DEA has
established a program at its headquarters designed to gather information
from DEA activities for sharing with the U.S. Intelligence Community. The
DEA Reports Officer Program was designed to review DEA investigative
reports and intelligence communications developed by DEA field personnel
and to develop summary reports of useful information for dissemination to
appropriate Intelligence Community agencies, including the FBI and NCTC.

      Our discussions with DEA field office personnel found that the process
for sharing terrorism-related information was well understood by DEA
domestic field office management. In each DEA field office we visited, DEA
personnel informed us that they passed terrorism information to the local
FBI office and the JTTF, as well as to the DEA’s SOD. We reviewed
documents from the Reports Officer Program that indicated that the DEA
was formally sharing terrorism-related information with the Intelligence
Community. Although the SOD and Reports Officer Program share

      11
           28 C.F.R. § 0.101 (a) & (b) (2007).


                                           - 15 -
information in a formal manner – usually through cables sent to agencies in
the Intelligence Community or through the DEA’s participation on the
National Joint Terrorism Task Force (NJTTF) – the terrorism information
relayed to the local FBI offices and JTTFs is shared in a less formal manner.12
According to DEA personnel in the field offices we visited, terrorism-related
information may be shared through telephone calls or through face-to-face
conversations. We were also informed that DEA personnel did not maintain
records of information shared in this manner.

      The following diagram demonstrates the basic DEA process for
reporting and sharing terrorism information.

                             DEA Terrorism Information Sharing
             Field-level Information Sharing             Headquarters-level Information Sharing



                    FBI Field Office
                         and/or
                  Local Joint Terrorism
                       Task Force




                             DEA Internal Information Sharing
                                                                                           FBI
                                                                                       Headquarters

                                                            DEA
                                                          Reports
                        DEA                               Officers
                    Domestic Offices                      Program

                                                                                       Intelligence
                                                                                    Community Agency
                                                                                      Headquarters

                         DEA                                DEA
                    Foreign Offices                       Special
                                                         Operations
                                                          Division

                                                                                          National
                                                                                      Joint Terrorism
                                                                                        Task Force




                   FBI Legal Attache
                         and/or
                  Other U.S. Agencies
                       in country




            Source: OIG analysis of the DEA information sharing process


       12
            The National Joint Terrorism Task Force (NJTTF) is a multi-agency task force led
by the FBI. It includes representatives from ATF, BOP, DEA, USMS and 37 other
government agencies and critical industries. The NJTTF coordinates the sharing of terrorism
threats and intelligence, coordinates special information and intelligence gathering
initiatives, and provides logistical and training support to the JTTFs. NJTTF task force
members receive and review information from their agencies and items of interest are
shared with other member agencies as appropriate.


                                                       - 16 -
       DEA-Sourced Watchlist Nominations – DEA headquarters and field
personnel stated that the DEA was not involved in the watchlist nomination
process. However, despite DEA’s belief that it was not involved in the
watchlist nomination process, we found that NCTC is creating watchlist
nominations from DEA intelligence documents that contain information on
known or suspected terrorists. Further, NCTC is sourcing such nominations
to the DEA. As of October 2007, NCTC reported that 40 records in its
database were sourced to the DEA. DEA officials were not aware that this
was occurring and believed that the agency had no formal role in the
watchlist nomination processes. When we discussed this with senior DEA
officials, they informed us that they would coordinate with NCTC to ensure
that NCTC officials understood that the DEA’s activities were intended as
information sharing efforts and not intended as formal nominations to the
watchlist.

      Moreover, because it did not know that it “owned” watchlist records,
the DEA had not been submitting information to modify or remove these
watchlist records when necessary. We believe the DEA and NCTC need to
coordinate responsibility for modifying and removing the DEA-sourced
nominations from the consolidated terrorist watchlist.

     Bureau of Alcohol, Tobacco, Firearms and Explosives

      The mission of ATF is to “investigate, administer, and enforce the laws
related to alcohol, tobacco, firearms, explosives, and arson.” In addition to
those specific functions, ATF can perform any other function “related to the
investigation of violent crime or domestic terrorism” as may be delegated by
the Attorney General.13 Though ATF does not have a specifically defined
counterterrorism function, its investigations can involve, or lead to, the
discovery of terrorist information.

       According to ATF officials, they have not submitted any terrorist
watchlist nominations. However, ATF officials stated that they share
information that they deem to be terrorism-related with the local FBI field
office or JTTF. At the field office level we were told that information was
shared with the FBI in an informal manner, usually by telephone, e-mail, or
face-to-face conversation. In addition, through its participation on the
NJTTF, ATF shares information with, and receives information from, the
various member agencies. ATF does not maintain documentation of the
information that is shared in this manner.




     13
          28 C.F.R. § 0.130(a) & (d) (2007).


                                          - 17 -
       However, ATF officials informed us that they often disagree with the
FBI as to what constitutes domestic terrorism. These ATF officials stated
that if ATF determines that an act is purely criminal and falls within ATF
jurisdiction, ATF will independently investigate the matter regardless of
whether the FBI would deem the case to be domestic terrorism. ATF officials
suggested that there was a lack of clarity, consistency, and understanding of
the definitions of terrorism and terrorist acts among law enforcement
agencies.

      Therefore, in some circumstances ATF is not sharing potential
domestic terrorism information with the FBI. As a result, the possibility
exists for individuals with a nexus to terrorism to not be placed on the
consolidated terrorist watchlist.

       We recommend that ATF and the FBI agree on sharing terrorism
information for use in the consolidated terrorist watchlist, to include what
activities would result in terrorism information sharing. Further, ATF should
ensure that ATF personnel are trained in how to identify such activities.

      United States Marshals Service

      Two of the primary missions of the USMS are the protection of the
federal judiciary and fugitive apprehension.14 USMS personnel told us that
these responsibilities can lead to the discovery of terrorism-related
information.

      According to USMS officials, when the USMS encounters a credible
threat during a threat investigation, USMS policy requires that such
information – with or without a nexus to terrorism – be passed to the local
FBI office. The USMS follows the same process if it obtains possible
terrorism information during a fugitive investigation. Our interviews of
USMS headquarters officials and field office staff indicated that the USMS is
sharing information with the FBI and the process for sharing such
information is understood by USMS personnel. However, although the USMS
shares information at the national level through its participation on the
NJTTF, similar to our findings at the DEA and ATF, we found that the USMS
process for sharing information at the field level has not been formalized.

      United States National Central Bureau

      Unlike the other DOJ components discussed above, the USNCB is not
an investigative law enforcement organization. The mission of the USNCB is

      14
           28 C.F.R § 0.111 (a) & (e) (2007).


                                           - 18 -
to facilitate international law enforcement cooperation as the United States’
representative to the International Criminal Police Organization (INTERPOL).
The USNCB’s major function is to transmit information between the United
States and other INTERPOL member countries, including requests for
assistance and information involving patterns and trends of criminal
activities.

       When we initially spoke with officials from the USNCB, they informed
us that, although the USNCB currently has several initiatives through which
it shares with the U.S. intelligence community potential terrorism
information that it obtains, it had no formal role in the watchlist nomination
process. However, as with the DEA, officials at NCTC informed us that
nominations had been created from information provided by the USNCB and
these nominations are being sourced to the USNCB without its knowledge.
As a result, these records are not being monitored for modification and
removal when necessary. When we informed USNCB officials that since
December 2003 about 350 nominations had been created and sourced to the
USNCB, USNCB officials responded that it was acceptable for NCTC to create
watchlist nominations from information the USNCB provided. These officials
also stated that they would follow up on the matter because they did not
intend for their actions to be considered formal watchlist nominations
originating from USNCB. Rather, they considered their efforts to be
information sharing initiatives appropriate to their role as a liaison with
INTERPOL. The USNCB officials also stated that their role as a liaison office
– as opposed to an investigative law enforcement agency – dictated that
their efforts be limited and not include any efforts to investigate the
significance or credibility of the information received and disseminated.
Accordingly, we recommend that the USNCB coordinate with NCTC to clarify
the responsibility for modifying and removing these USNCB-sourced
watchlist records.

      Federal Bureau of Prisons

      Like the USNCB, the BOP is not an investigative law enforcement
agency. However, the BOP plays an important role in the collection,
analysis, and sharing of terrorism-related information through its monitoring
and analysis of inmate communications. In recent years, the BOP has
developed several initiatives designed to contribute to the U.S. government’s
counterterrorism efforts. For example, through its participation on the
NJTTF, the BOP has worked with the FBI in the establishment of the




                                    - 19 -
Correctional Intelligence Initiative.15 In addition, the BOP created a Counter
Terrorism Unit, which is responsible for tracking and monitoring the
international and domestic terrorists within the BOP system, including
analyzing inmate correspondence and financial transactions. Through this
monitoring, the BOP Counter Terrorism Unit often obtains information or
intelligence about terrorist organizations and activities. According to BOP
officials, the BOP shares such information with the FBI through its contact
with the NJTTF and with local FBI agents. In addition, an FBI agent has
been detailed to the BOP Counter Terrorism Unit to facilitate information
sharing.

      In our discussions with BOP personnel, we found that they understood
BOP processes and procedures for sharing terrorism-related information and
that BOP personnel were sharing information with the FBI. However, as with
the other DOJ information sharing components, we found that the process
by which this information is shared has not been formalized. In addition, we
found that the BOP’s ability to identify inmates with potential ties to
terrorism, particularly in instances of domestic terrorism and cases in which
an inmate had been convicted of non-terrorism related charges, had not
been fully developed.

DOJ Oversight of Watchlisting and Information Sharing

        In general, while DOJ components share terrorist information and
provide watchlist information, these activities have been developed
independently and are not coordinated by the Department. DOJ’s National
Security Division (NSD), which was created in March 2006, is now
responsible for overseeing the development, coordination, and
implementation of Department policy with regard to intelligence,
counterintelligence, and national security matters. Further, NSD is
responsible for participating in the systematic collection and analysis of
information relating to terrorism investigations and formulating legislative
initiatives, policies, and guidelines relating to terrorism.16

      We discussed DOJ watchlisting and information sharing activities with
NSD officials. These officials stated that NSD has no formal role in the
watchlist nomination process. Officials further stated that because NSD is
primarily a consumer of information from other DOJ components, such as
the FBI, they had not considered whether Department policy on the watchlist

       15
           The Correctional Intelligence Initiative is an FBI-led initiative, coordinated through
the NJTTF, designed to deter, detect, and disrupt radicalization efforts within federal, state,
local, and tribal prison systems in the United States.
       16
            28 C.F.R. 0.72 § (a)(4) & (c)(1) (2007).


                                             - 20 -
nomination process and related information sharing activities was necessary.
These officials also noted that NSD does not have the authority to
promulgate guidance or policy to other DOJ components without specific
direction from the Office of the Deputy Attorney General. Therefore, they
said that NSD had not become involved in matters related to terrorist
watchlist nominations or related information sharing policies and practices.

      In the absence of DOJ oversight and coordination, the FBI has
developed policies and processes to nominate individuals to the consolidated
terrorist watchlist and other DOJ components have developed processes
concerning the sharing of terrorist information. Yet, none of the other
components have formalized their information sharing practices and only
some of them have documented their policies requiring information sharing.
We believe that informal information sharing processes create a greater risk
that terrorism information is not shared fully, accurately, and timely and that
the information has not been acted upon in an appropriate manner.

        We therefore recommend that DOJ consider promulgating general
policy related to nominations to the consolidated terrorist watchlist and the
sharing of information that might result in such a nomination. Such policy
could identify nomination thresholds and information sharing criteria and
require the formalization of watchlist nomination and information sharing
activities. Although each DOJ component would continue its current
initiatives to share information related to known or suspected terrorists and
the FBI would continue to make its nominations, such a policy would provide
an overall framework within which DOJ components would operate. Further,
if all DOJ components operated within a standardized framework, others in
the intelligence community, such as NCTC, would have a better ability to
understand the intent of, and act appropriately upon, the information
provided.

Conclusion

       The FBI is the only DOJ component that formally nominates known or
suspected terrorists for inclusion on the consolidated terrorist watchlist. We
found that the FBI had established a formal watchlist nomination process
with quality controls built into the process, FBI personnel understand their
agency’s role in the watchlist nomination process, the FBI provides formal
training and basic instruction on its watchlist nomination process, and the
FBI generally has sound record management procedures for its watchlist
nominations.

       However, we found weaknesses in the FBI’s watchlist nomination
policies, such as insufficient field office review of nomination packages for


                                     - 21 -
investigative subjects. In addition, there is no requirement to modify and
remove, when necessary, watchlist records of non-investigative subjects.
Accordingly, we are recommending that the FBI improve its quality control
structure by requiring field office review of watchlist nominations to ensure
accuracy and timeliness as well as developing policy for modification and
removal of watchlist nominations of non-investigative subjects.

      Additionally, our review revealed deficiencies in the FBI’s practices
related to submitting, modifying, and removing watchlist nomination
records. For example, we found that FBI field offices bypass FBI
headquarters and submit nominations for non-investigative subjects directly
to NCTC. This practice does not have sufficient controls to ensure the
appropriateness or accuracy of the nomination. We also found significant
delays in the processing of watchlist nomination packages. Further, we
found that the FBI generally has sound record management procedures for
its watchlist nominations, although we identified instances outside the FBI’s
standard nominations procedures that may cause FBI records to be
incomplete.

      We intend to continue our review of the FBI’s watchlist nomination
practices and perform more in-depth analysis of FBI files to further assess
the identified quality control weaknesses. For example, we intend to
determine if subjects of open FBI cases are appropriately and timely
watchlisted and that these records are updated with new identifying
information as required. We also plan to examine the extent to which the
FBI is watchlisting individuals for which it does not have an open
investigation and if subjects of closed FBI investigations are appropriately
removed from the watchlist in a timely manner. In addition, we also plan to
review watchlist nomination files and determine the extent and effect of
nomination package delays and omissions.

      In addition to its responsibilities as DOJ’s only nominating component,
the FBI also engages in intelligence sharing initiatives. However,
unbeknownst to the FBI, when NCTC receives FBI reports generated through
these initiatives, NCTC treats them as formal nominations. Because these
records were sourced to the FBI without the FBI’s knowledge, watchlist
record modifications and removals were not being processed as required.
We also found that the DEA and USNCB engaged in similar information
sharing initiatives which resulted in the creation of watchlist records by
NCTC. We believe that there is a significant potential for records created in
this manner to be inaccurate and become stale. We therefore recommend
that the FBI, DEA, and USNCB ensure the correct sourcing of watchlist
records involving information shared by their agencies.



                                    - 22 -
       Although the FBI is the only DOJ component that officially nominates
individuals to the terrorist watchlist, other DOJ components obtain terrorist-
related information through their operations. Our review revealed that these
components have established processes to share such information with the
FBI. However, with the exception of the USNCB and certain processes at the
DEA, all of the components were sharing information in an informal manner,
and only some components had documented their policies requiring
information sharing. In addition, the potential exists for terrorism
information to not be shared with the FBI and for individuals to not be
watchlisted because at least one component, ATF, did not categorize criminal
activity as being terrorism-related in a manner similar to the FBI.

       Finally, our review found that these nominating and information
sharing initiatives have been developed independently and are not
coordinated by DOJ. In the absence of DOJ coordination and oversight, the
FBI had developed its own policies and processes to nominate individuals to
the consolidated terrorist watchlist, and other components had developed
their own processes concerning the sharing of terrorist information.
However, with the exception of the USNCB, and certain sharing practices at
the DEA, we found that none of the components had formalized their
information sharing practices and only certain components had documented
their policies regarding information sharing.

      We believe that informal information sharing processes create a
greater risk that terrorism information is not passed fully, accurately, and
timely and that information is not acted upon in an appropriate manner. We
therefore recommend that DOJ consider promulgating general policy related
to watchlist nomination processes and the sharing of information that might
result in a nomination. Such policy could identify nomination thresholds and
information sharing criteria, or require formalization of watchlist nomination
and information sharing activities. Although each DOJ component would
continue its current initiatives to share information related to known or
suspected terrorists and the FBI would continue to make its nominations,
such a policy would provide an overall framework within which all DOJ
components would operate. Further, if DOJ components operated within a
standardized framework, others in the Intelligence Community, such as
NCTC, would have a better understanding of the intent of, and act
appropriately upon, information provided.




                                    - 23 -
Recommendations

We recommend the Department of Justice:

     1.   Promulgate general policy related to nominations to the
          consolidated terrorist watchlist and the sharing of information
          among DOJ components that might result in such a nomination,
          potentially including identifying nomination thresholds and
          information sharing criteria, and requiring formalization of
          watchlist nomination and related information sharing activities.

We recommend the FBI:

     2.   Modify its written policy to require field office SSAs to review the
          nomination form for sufficient and accurate information prior to
          submission of the nomination form to FBI headquarters.

     3.   Determine whether its watchlist processes for both its
          international terrorist and domestic terrorist nominations could
          be streamlined to reduce the number of times watchlist
          information must be manually entered.

     4.   Improve the policies concerning non-investigative subjects that
          the FBI nominates to the consolidated terrorist watchlist,
          including adding a requirement for the modification and removal
          of non-investigative subjects from the watchlist.

     5.   Ensure that all appropriate individuals, including JTTF personnel
          and veteran FBI agents, receive adequate training related to the
          FBI’s watchlist nominations process.

We recommend the FBI, DEA, and USNCB:

     6.   Ensure the correct sourcing of watchlist records involving
          information shared by their agencies and clarify responsibility for
          keeping these records accurate and up-to-date.

We recommend the FBI and ATF:

     7.   Reach agreement on sharing terrorism information for use in the
          consolidated terrorist watchlist, to include what activities would
          result in terrorism information sharing. Further, ATF should
          ensure that ATF personnel are trained in how to identify such
          activities.


                                   - 24 -
                                      APPENDIX I


             DEPARTMENT OF JUSTICE
OFFICE OF THE DEPUTY ATTORNEY GENERAL RESPONSE




                     - 25 -
                                  APPENDIX II


FEDERAL BUREAU OF INVESTIGATION RESPONSE




                  - 26 -
         APPENDIX II




- 27 -
                                 APPENDIX III


DRUG ENFORCEMENT ADMINISTRATION RESPONSE




                  - 28 -
         APPENDIX III




- 29 -
         APPENDIX III




- 30 -
                                       APPENDIX IV


U.S. NATIONAL CENTRAL BUREAU of INTERPOL RESPONSE




                      - 31 -
                                 APPENDIX V


BUREAU OF ALCOHOL, TOBACCO, FIREARMS
      AND EXPLOSIVES RESPONSE




                - 32 -
         APPENDIX V




- 33 -
                                                              APPENDIX VI


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT
      We provided a draft audit report for review and comments to the
Office of the Deputy Attorney General (ODAG); the Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF); the Drug Enforcement
Administration (DEA); the Federal Bureau of Investigation (FBI); the Federal
Bureau of Prisons (BOP); the National Security Division (NSD); the
U.S. Marshals Service (USMS); and the U.S. National Central Bureau of
Interpol (USNCB). Our report did not include any recommendations
addressed to the BOP, NSD, or USMS and these components had no
comments on our report. The comments that we received from the ODAG,
ATF, DEA, FBI and USNCB, which detail the actions taken or plans for
implementing our recommendations, have been incorporated in Appendices I
through V of this report. Our analysis of these responses and a summary of
the actions necessary to close each recommendation are found below.

Recommendation Number:

1.   Resolved. The Office of the Deputy Attorney General agreed with this
     recommendation. According to the Office of the Deputy Attorney
     General, it understands that the Director of National Intelligence (DNI)
     is considering issuing watchlist nomination guidance to the entire
     Intelligence Community (IC) and DOJ will coordinate its issuance of
     Department-wide policy with the DNI’s issuance of IC-wide guidance.
     Although this recommendation was not specifically directed to the FBI,
     the FBI also offered its comments and stated that, in collaboration with
     the Terrorist Screening Center (TSC) and National Counterterrorism
     Center (NCTC), it will develop uniform standards and protocols for
     watchlisting.

     Therefore, this recommendation can be closed when we receive
     confirmation of the issuance of Department-wide policy addressing
     nominations and terrorist information sharing related to the
     consolidated terrorist watchlist.

2.   Resolved. The FBI concurred with this recommendation and stated
     that its Terrorist Review and Examination Unit (TREX) will draft an
     electronic communication (EC) with updated watchlisting policies,
     including a requirement that a Supervisory Special Agent (SSA) sign
     off on all FD-930s before the forms are submitted from a field office to
     TREX. The FBI estimates that this EC will be finalized in March 2008.
     Therefore, this recommendation can be closed when we receive
     evidence that the aforementioned EC has been finalized and
     disseminated to all appropriate field office personnel.


                                   - 34 -
                                                              APPENDIX VI



3.   Resolved. The FBI concurred with this recommendation and stated
     that TREX is currently working with NCTC and TSC to streamline the
     process and reduce the number of times watchlist information must be
     manually entered. It proposes to have nomination data entered into
     TIDE by the NCTC Terrorist Identities Group. NCTC will then export
     the information to the TSC where it will be included in the consolidated
     terrorist watchlist and disseminated to all other appropriate support
     systems. The FBI expects that an EC describing the new process and
     outlining the responsibilities of TREX and TSC will be drafted by April
     2008. Therefore, this recommendation can be closed when we receive
     the finalized version of this EC and evidence that the new process has
     been implemented.

4.   Resolved. The FBI concurred with this recommendation and stated
     that TREX will work with other appropriate entities to ensure that all
     non-investigative subjects nominated to the watchlist are nominated,
     modified, and removed from the watchlist in a consistent manner. The
     FBI expects that an EC highlighting the new policy will be drafted and
     disseminated to all field and Legal Attaché offices in March 2008.
     Therefore, this recommendation can be closed when we receive the
     finalized EC.

5.   Resolved. The FBI concurred with this recommendation and stated
     that TREX has provided watchlisting training at the annual National
     Joint Terrorism Task Force (NJTTF) Conference, is currently scheduled
     to provide training to 18 New Agents Trainee classes in FY 2008, and
     will coordinate with the NJTTF unit to develop training curriculum at
     various regional JTTF conferences. Although the FBI’s response
     addresses training for JTTF personnel, it is unclear whether veteran
     agents not assigned to the JTTFs will receive any watchlisting training.
     This recommendation can be closed when we receive additional
     comments addressing watchlisting training that will be provided to
     veteran FBI agents. In addition, please provide the training curriculum
     that was developed for the regional JTTF conferences.

6.   Resolved. The FBI, DEA, and the U.S. National Central Bureau
     (USNCB) concurred with this recommendation and each component
     offered additional comments that are addressed below.

     The FBI stated that TREX will work with NJTTF, DEA, and USNCB points
     of contact to develop a Memorandum of Understanding that will clearly
     outline each agency’s responsibilities for keeping accurate records.
     The FBI believes that significant progress will be made by April 2008.


                                   - 35 -
                                                                APPENDIX VI



     The DEA stated that it has been in close communication with the NCTC
     concerning this issue and that appropriate staff at NCTC are working to
     remove references to DEA nominations and clarifying to NCTC staff
     that DEA intelligence documents are for information sharing purposes
     only. In addition, the DEA’s Office of National Security Intelligence
     (NN) is in the final stages of negotiating a Memorandum of
     Understanding with NCTC to place an NN staff coordinator in NCTC
     whose responsibilities will include monitoring these information sharing
     efforts to ensure that they are not mistaken for watchlist nominations.

     The USNCB stated that it will coordinate with NCTC to develop a
     process for ensuring that information provided to NCTC is accurate and
     updated as frequently as practicable. However, the USNCB does not
     specifically state that it will address the correct sourcing of watchlist
     records resulting from USNCB information.

     This recommendation can be closed when the FBI provides us with the
     Memorandum of Understanding signed by DEA, USNCB and the FBI.
     The FBI should also provide us with comments as to what action it is
     taking to ensure the correct sourcing of watchlist records that were
     incorrectly sourced to the FBI. The DEA needs to provide us with
     evidence that references to DEA nominations have been removed and
     that DEA and NCTC have agreed that DEA intelligence documents will
     no longer be considered DEA watchlist nominations. The USNCB needs
     to provide us with confirmation that officials at USNCB and NCTC have
     agreed upon a process for ensuring that information provided to NCTC
     is accurate, updated as frequently as practicable, and correctly
     sourced.

7.   Resolved. The FBI and the Bureau of Alcohol, Tobacco, Firearms and
     Explosives (ATF) concurred with this recommendation and both
     components offered additional comments that are addressed below.

     The FBI concurred with this recommendation and stated that TREX will
     work with the NJTTF and ATF points of contact to develop a
     Memorandum of Understanding that will clearly outline how terrorism
     information for use in the consolidated terrorist watchlist should be
     used.

     The ATF stated that it will take necessary steps to implement the
     recommendation and ensure that ATF personnel are trained in
     identifying matters that might relate to the terrorist watchlist.
     Specifically, ATF stated that it will meet with the FBI with the intention


                                    - 36 -
                                                       APPENDIX VI


of reaching a clear and practical method of determining when criminal
activity has an identifiable nexus to domestic terrorism. In addition,
the ATF plans to continue to exchange with the FBI information related
to suspected acts of domestic terrorism. This information exchange
will be accomplished through ATF Special Agents currently assigned
full time to the National Joint Terrorism Task Force and the FBI’s
Domestic Terrorism Operations Unit.

This recommendation can be closed when we receive evidence that the
ATF and FBI have reached an agreement on the sharing of all
terrorism information for use in the consolidated watchlist, including
what activities would result in terrorism information sharing, and
evidence that ATF personnel are trained in how to identify such
activities (including both domestic and international terrorism
matters).




                             - 37 -
